 U.S. Department of Agriculture
  Office of Inspector General
        Midwest Region
          Audit Report




       FOOD STAMP PROGRAM
ADMINISTRATIVE COSTS FOR THE STATE
             OF OHIO




                 Report No.
                27099-0020-Ch
                SEPTEMBER 2000
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                      OFFICE OF INSPECTOR GENERAL
                                               Midwest Region
                                     111 North Canal Street - Suite 1130
                                           Chicago, IL 60606-7295
                                   TEL: 312-353-1354 FAX: 312-353-3017



DATE:          September 5, 2000

REPLY TO
ATTN OF:       27099-0020-Ch

SUBJECT:       Food Stamp Program – Administrative Cost for the State of Ohio

TO:            Theodore O. Bell
               Regional Administrator
               Food and Nutrition Service
               77 West Jackson Boulevard – 20th Floor
               Chicago, IL 60604


This report presents the results of our audit of the administrative costs claimed by the Ohio Department
of Human Services under the Food Stamp Program. Your agency’s response to the official draft report,
dated July 25, 2000, is included in exhibit D, with excerpts and the Office of Inspector General’s
position incorporated into the Findings and Recommendations section of the report.

Based on the information contained in the response, we have reached management decisions on
Recommendations Nos. 1, 2, 3, 4, 5, 7, 8, 10, 12, and 13. Please follow your agency’s internal
procedures in forwarding documentation for final action to the Office of the Chief Financial Officer.

We have not yet reached management decisions on Recommendations Nos. 6, 9, 11, 14, and 15.
Management decisions can be reached when FNS has provided the additional information outlined in
the report sections OIG Position, for the applicable recommendations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
corrective actions you plan to take and the timeframes to address these recommendations. Please note
that the regulation requires a management decision to be reached on all recommendations with 6 months
of report issuance.



/s/

EDWARD R. KRIVUS
Regional Inspector General
                          EXECUTIVE SUMMARY
                        FOOD STAMP PROGRAM
              ADMINISTRATIVE COSTS FOR THE STATE OF OHIO

                          REPORT NO. 27099–0020–Ch


                                      This report presents the results of our audit of
     RESULTS IN BRIEF                 administrative costs claimed by the Ohio
                                      Department of Human Services under the Food
                                      Stamp Program (FSP). The purpose of the
         audit was to evaluate Food and Nutrition Service (FNS) procedures to
         control State FSP administrative costs and to determine if the State
         agency’s cost allocation plan was properly reviewed and approved, if it fairly
         distributed administrative costs between programs (Federal and State), and
         if the State was allocating administrative costs already covered by State
         block grants.

           The FNS Regional Office had reviewed the State agency cost allocation
           plans and provided comments to the cognizant agency. Our review at the
           State agency and at nine county Departments of Human Services disclosed
           that a statistical sampling plan was implemented by the State to measure
           county staff activities and distribute administrative costs to the benefiting
           Federal and State programs. We found that the random moment sample
           time study, the statistical method used by the State agency, was not
           operated in accordance with the approved procedures. In addition, a quality
           control function to verify the accuracy of the sampling plan was not always
           properly implemented and, even when it was, it was not effective and did not
           accomplish the control intended. Because of this, there was reduced
           assurance that the reported county staff activities represented what the staff
           was actually doing at the sampled moments and, therefore, the FNS
           reimbursement of over $18 million in administrative costs to the FSP for the
           third quarter of fiscal year 1999 was questionable.

           The Ohio Department of Human Services had various cost allocation and
           reporting problems that resulted from internal control weaknesses. These
           problems led us to conclude that $52,111 of the FSP administrative cost
           reimbursements that FNS paid were questionable or incorrect.




USDA/OIG-A/27099-20-Ch                                                            Page i
            Specifically, the State agency had:

            •      Claimed administrative costs from FNS even after the costs had been
                   disallowed by another Federal agency, although the costs similarly
                   impacted the FSP.

            •      Allocated contracted legal costs incurred for a specific program to an
                   indirect cost pool when those costs should have been charged directly
                   to the benefiting programs.

            •      Claimed incorrect administrative costs because of simple reporting
                   errors and because of inaccurately compiled electronic benefit
                   transfer program costs.

            •      Not followed approved operating procedures for the random moments
                   time study even though recent Single Audits of the State of Ohio had
                   reported that condition. Those audits also reported various internal
                   control weaknesses similar to those reported here.

                                        We recommend that FNS require the State
 KEY RECOMMENDATIONS                    agency to ensure that counties operate the
                                        sampling plan as required by the State agency’s
                                        Administrative Procedure Manual; strengthen
        the internal/statistical controls for the sample; and improve the audit trail for
        the sample. FNS should recover $52,111 it overpaid the State agency for
        FSP cost reimbursements. Finally, FNS should provide oversight to ensure
        that Single Audit findings that impact the FSP are corrected on a timely
        basis.

                                    In its July 25, 2000, written response to the draft
    AGENCY RESPONSE                 report, the FNS Regional Office agreed with the
                                    findings and recommendations contained in the
                                    report. We have incorporated applicable
        portions of the FNS response along with our position with in the Findings and
        Recommendations section of the report. The agency’s response is included
        as exhibit D of the report.




USDA/OIG-A/27099-20-Ch                                                           Page ii
                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY............................................................................................................i
   RESULTS IN BRIEF ...............................................................................................................i
   KEY RECOMMENDATIONS ................................................................................................ii
   AGENCY RESPONSE...........................................................................................................ii
TABLE OF CONTENTS ...........................................................................................................iii
INTRODUCTION.........................................................................................................................1
   BACKGROUND......................................................................................................................1
   OBJECTIVES..........................................................................................................................2
   SCOPE .....................................................................................................................................2
   METHODOLOGY ....................................................................................................................3
FINDINGS AND RECOMMENDATIONS................................................................................4
   CHAPTER 1.............................................................................................................................4
   RANDOM MOMENT SAMPLING PROCEDURES WERE NOT FOLLOWED ............4
   FINDING NO. 1 ........................................................................................................................4
   RECOMMENDATION NO. 1 .................................................................................................9
   RECOMMENDATION NO. 2 .............................................................................................. 10
   RECOMMENDATION NO. 3 .............................................................................................. 10
   RECOMMENDATION NO. 4 .............................................................................................. 10
   RECOMMENDATION NO. 5 .............................................................................................. 11
   CHAPTER 2.......................................................................................................................... 12
   INADEQUATE INTERNAL CONTROLS......................................................................... 12
   FINDING NO. 2 ..................................................................................................................... 12
   RECOMMENDATION NO. 6 .............................................................................................. 13
   RECOMMENDATION NO. 7 .............................................................................................. 14
   RECOMMENDATION NO. 8 .............................................................................................. 14
   FINDING NO. 3 ..................................................................................................................... 15
   RECOMMENDATION NO. 9 .............................................................................................. 16
   RECOMMENDATION NO. 10............................................................................................ 16

USDA/OIG-A/27099-20-Ch                                                                                                              Page iii
   FINDING NO. 4 ..................................................................................................................... 17
   RECOMMENDATION NO. 11............................................................................................ 18
   RECOMMENDATION NO. 12............................................................................................ 19
   RECOMMENDATION NO. 13............................................................................................ 19
   RECOMMENDATION NO. 14............................................................................................ 19
   CHAPTER 3.......................................................................................................................... 21
   THE STATE AGENCY HAD NOT INCLUDED RECURRING COSTS IN ITS CAP 21
   FINDING NO. 5 ..................................................................................................................... 21
   RECOMMENDATION NO. 15............................................................................................ 23
GENERAL COMMENTS ........................................................................................................ 23
   EXHIBIT A – SUMMARY OF MONETARY RESULTS.................................................. 26
   EXHIBIT B – SUMMARY OF EXPENSES THAT WERE NOT
   CORRECTED OR ADJUSTED FOR THE FSP............................................................. 27
   EXHIBIT C – SUMMARY OF UNALLOWABLE LEGAL EXPENSES ....................... 28
   EXHIBIT D – FNS’ RESPONSE TO THE DRAFT REPORT....................................... 29




USDA/OIG-A/27099-20-Ch                                                                                                        Page iv
                                INTRODUCTION

                                      Congress passed the Food Stamp Program
       BACKGROUND                     (FSP) to promote the general welfare, and to
                                      safeguard the health and well being of the
                                      Nation’s population. The FSP does this by
         raising the nutritional level of low-income families by providing monthly
         benefits to needy households that meet specific income, asset, and
         employment-related eligibility that permits the purchase of additional food
         items The amount of benefits received by a household is based on the
         household’s size and income. The FSP is a Federal/State partnership with
         the Federal Government paying the full cost of benefits and at least     50
         percent of the cost to administer the program.

           In the U. S. Department of Agriculture, the Food and Nutrition Service (FNS)
           administers the FSP through agreements with State agencies. The Ohio
           Department of Human Services (State agency) is responsible for
           administering the program in Ohio through 88 counties that are responsible
           for determining the eligibility and amount of benefits issued to approved
           applicants.

           In fiscal year (FY) 1999 the SA issued about $552 million in food stamp
           benefits to 293,372 households containing 639,786 people. The State
           agency also received $72,682,471 for the matching Federal share of the
           FSP administrative costs. These administrative costs were certification
           costs, nutritional education costs, benefit issuance costs, quality control
           costs, anti-fraud costs, and hearing costs. The State agency based its direct
           and indirect administrative costs upon a cost allocation plan (CAP) that it
           prepared. The cognizant Federal agency, the U. S. Department of Health and
           Human Services (HHS), reviewed and approved the CAP; however, FNS
           had an opportunity to review the CAP and provide comments to HHS. The
           State agency distributed county administrative costs among benefiting
           programs based upon random moment sample (RMS) time studies. The
           RMS approximated the amount of time that county personnel spent on cases
           related to each Federal or State program.

           Congress has revised the method for funding of FSP administrative costs in
           recent years. The Personal Responsibility and Work Opportunity
           Reconciliation Act of 1996 (Welfare Reform Act) replaced the Aid to
           Families with Dependent Children (AFDC) Program with the Temporary
           Assistance for Needy Families (TANF) Program. TANF is a block grant
           program that serves AFDC’s target population. The act based each State’s

USDA/OIG-A/27099-20-Ch                                                          Page 1
           block grant on the State’s prior AFDC spending levels, including spending
           for common administrative costs. Previously, much of the Nation’s federally
           funded public assistance was delivered under three programs; AFDC, FSP,
           and Medicaid. States usually charged certain administrative costs
           considered common to all three programs – such as participant eligibility
           determinations – to AFDC.

           The Agricultural Research, Extension, and Education Reform Act of 1998
           (Ag Reform Act) reduced the Federal reimbursement for FSP administrative
           costs from FY 1999 through FY 2002. The act required HHS, which
           administers TANF and Medicaid, to determine how much of the common
           administrative costs for determining eligibility, that were previously charged
           to AFDC, could have been charged to the FSP and Medicaid in each State.
           The act also required USDA to reduce future Federal reimbursements of
           state’s administrative costs for the FSP by an amount equal to the HHS
           determinations of the common administrative costs attributable to the FSP
           that had been charged by each State to AFDC. FNS began making the
           reductions to State FSP reimbursement claims in FY 1999 and is to continue
           making the reductions annually through FY 2002.

                                     The overall audit objective was to evaluate FNS’
        OBJECTIVES                   procedures to control State FSP administrative
                                     costs, and to determine whether allocation plans
                                     were properly reviewed and approved and that
         they fairly distributed administrative costs between programs. We also
         determined if the State was allocating administrative costs that were already
         covered under the State block grant.

                                     We audited the State agency’s claim for FSP
            SCOPE                    reimbursements of administrative costs for the
                                     third quarter of FY 1999. Outlays reported for
                                     the quarter totaled $58,877,379. We also
           reviewed other periods as we considered necessary to achieve the audit
           objectives.

           We performed our audit at the FNS Regional Office (FNSRO) in Chicago,
           Illinois, and the Ohio Department of Human Services (State agency) in
           Columbus, Ohio. Also, we visited County Departments of Human Services in
           Allen, Clark, Delaware, Franklin, Mahoning, Pickaway, Richland, and Stark
           Counties. The counties visited were selected judgmentally to obtain a cross-
           section of large and small counties from across the State, in order to assess
           the operation of the RMS timestudy. We performed our fieldwork from July
           27 through December 20, 1999.

           We performed the audit in accordance with generally accepted government
           auditing standards.


USDA/OIG-A/27099-20-Ch                                                           Page 2
                                      To accomplish our audit objectives, we:
      METHODOLOGY

           •    Reviewed regulations, policies and procedures governing FSP
                administrative costs, including Code of Federal Regulation (CFR)
                Titles 7, and 45, and the applicable Office of Management and
                Budget (OMB) circulars;

           •    interviewed FNSRO officials;

           •    reviewed recent financial management evaluations of Ohio and the
                State agency’s CAP at the FNSRO;

           •    reviewed the State agency’s administrative procedures manual;

           •    reviewed internal audit reports for the State agency to identify issues
                concerning the allocation of State administrative costs;

           •    reviewed the State agency accounting records, and analyzed charges
                and reimbursement claims made to the FSP during FY 1999;

           •    reviewed the results of State and local level audits performed under
                the Single Audit Act to identify issues concerning the allocation of
                State administrative costs;

           •    interviewed State and county officials responsible for recording and
                reporting administrative costs and completing the RMS; and

           •    reviewed a sample of FSP case files at selected county agencies to
                confirm RMS data.




USDA/OIG-A/27099-20-Ch                                                          Page 3
                FINDINGS AND RECOMMENDATIONS


                           RANDOM MOMENT SAMPLING PROCEDURES
    CHAPTER 1
                                   WERE NOT FOLLOWED

                                          The State agency had not properly implemented
        FINDING NO. 1                     the RMS time study used to measure county
                                          income maintenance staff activities and as the
                                          basis for distributing indirect costs to benefiting
                                          programs. RMS forms were not properly
           distributed to the selected sample employees and revisions to completed
           sample forms were made by unauthorized personnel. Control sample forms
           were not properly completed and the control function the sample was to
           accomplish was not known at either the State or county levels and thus was
           not properly utilized. In addition, the audit trail specified in RMS procedures
           did not provide for confirmation of the program entered on the observation
           forms that were completed for each random moment. This occurred because
           county officials were not always aware of approved operating procedures
           and because established controls were not implemented or were not
           effective. As a result, the State agency allocated questionable costs of about
           $36.3 million in the quarter ending June 1999 to the FSP and collected
           related reimbursement of $18.1 million from FNS.

           OMB Circular No. A-87 established principles and standards for determining
           costs for Federal awards carried out through grants, cost reimbursement
           contracts, and other agreements with State and local governments. It
           provided that the distribution of the salaries of employees working on
           multiple activities must be supported by personal activity reports, unless a
           statistical sampling system had been approved by the cognizant Federal
           agency.




USDA/OIG-A/27099-20-Ch                                                               Page 4
           HHS approved the State agency’s use of RMS techniques as the basis for
           allocating indirect cost to the various Federal and State programs in Ohio,
           including the FSP. For each 3-month period, the State agency generated a
           list of randomly selected minutes for each county. The random minutes,
           referred to as random moments, represent a statistically valid cross-section
           of work actually being performed throughout the entire workforce during the
           quarter. The randomly selected moments included the employees for each
           county to use in the actual sample collection process.

           The State agency documented the procedures that were to be used to
           operate the approved RMS method in the Administrative Procedure Manual
           (APM). If followed, the results of the sampling process would be statistically
           valid, as would be the resulting cost allocations. The “moments” that were the
           bases of this sampling method were randomly selected dates and times (to
           the minute) for randomly selected income maintenance employees in each
           county. Each selected worker was to complete an observation form listing
           the program worked on, and the activity performed for that program, on the
           selected date and at the selected time. The data reported on the
           observation forms was summarized for each county and used by the State
           agency to allocate common administrative costs among the benefiting
           programs in each county. The State agency had selected some of the
           random moment samples in each county as a quality control group to monitor
           the results of the entire sample.

           We visited nine counties selected judgmentally from around the State to
           determine how the RMS operated and if controls were effective to ensure
           sampling accuracy. We interviewed the RMS coordinator in each county
           regarding the handling of the RMS observation forms, including the
           distribution of the forms to the sampled income maintenance workers, and
           the completion of the control samples. We also reviewed recently completed
           RMS observation forms to determine if they were properly completed, and
           case information from a sample of the observation forms to determine if
           documentation supported the entries on the observation forms. We noted the
           following deficiencies that brought RMS sample results into question.

           •      Coordinators in five of the nine counties had not ensured the forms
                  were distributed to the sampled workers on a timely basis. The APM
                  specified that the observation forms were to be distributed “at or very
                  near to the moments specified in the sample.” We found that the
                  observation forms were provided to workers hours, days, even up to a
                  month, ahead of the sample moments. Coordinators in the five
                  counties most commonly distributed the forms to the applicable
                  workers at the beginning of the day or at the beginning of the week in
                  which the moments occurred. In one county, the coordinator
                  distributed the RMS observation forms to income maintenance



USDA/OIG-A/27099-20-Ch                                                           Page 5
                supervisors, several of whom, in turn, distributed the forms to the
                applicable workers up to a month prior to the sample moments.

                As a result, the sample may be biased because the workers had the
                observation forms for extended periods prior to the moment that was
                to be sampled. The State agency had no assurance that information
                provided on the observation forms represented what the sampled
                workers were actually doing at the selected random moments.

           •    We noted that previously completed RMS observation forms were
                revised by unauthorized individuals in four of the nine counties visited.
                The APM provided that “…only the individual completing the
                observation form may revise it if a mistake is identified.” We found
                that some forms were revised, even completed in their entirety, by the
                applicable RMS coordinator in three counties and by an income
                maintenance supervisor in a fourth county. Revisions were not
                confirmed with the applicable workers. During our review of recently
                completed RMS observation forms in one county, we found several
                forms that were completely blank except for the sampled workers’
                initials. When we questioned what data was provided to the State in
                such circumstances, the coordinator stated that she would review the
                workers activities that day through the computer system used for case
                management. She stated that she could not be sure of the time in all
                cases. We observed that because workers handled multiple
                programs, the coordinator could also not always be sure of the
                program that should have been charged. In another county, the
                income maintenance supervisor who distributed some RMS
                observation forms stated that prior to returning completed forms to the
                coordinator she would review them and make changes or corrections
                she believed necessary.

                As a result of the unauthorized revisions to the RMS observation
                forms, there was reduced assurance that the information provided
                regarding programs and activities worked on represented what the
                workers were actually doing at the sampled moments.

           •    We noted that the RMS coordinators in five of the nine counties
                visited had not properly completed control samples required by the
                State agency as a method of quality control. Coordinators were to
                personally interview the selected workers at the applicable random
                moments and complete observation forms based on those interviews.
                The workers sampled had been selected as a quality control group to
                monitor the results of the entire sample. The APM stated that, “As a
                method of quality control, four percent of all income maintenance RMS
                samples are selected as a control group.” It required that “… the
                coordinator asks the individual which program or activity they are

USDA/OIG-A/27099-20-Ch                                                           Page 6
                working on at the specified moment and completes the observation
                form personally.” This was to assure sampling accuracy, form
                completion, and quality control. The coordinators passed the control
                sample observation forms to the applicable workers with the regular
                RMS observation forms, for completion at the selected random
                moment. The coordinators stated that they had not completed the
                observation forms for control samples because they were not aware
                they were required to do so. One coordinator stated she did not have
                the time to complete the forms, so she passed them to the sampled
                workers for completion.

                Neither the coordinators in the counties visited nor the State agency
                personnel responsible for the management of the RMS were aware of
                the purpose of the control random moments. State agency personnel
                stated that no analysis was performed of the results of the control
                random moments and could not explain how the control random
                moments were used to assure sampling accuracy, form completion,
                and quality control.

                As a result, the control that was supposed to assure sampling
                accuracy, form completion, and quality control was not effective
                because it was not always used. In addition, when it was used, when
                the coordinators did conduct the required interviews and complete the
                random moment observation forms, the control accomplished nothing
                because the results of the control sample were not analyzed.

           •   The required audit trail was not sufficient to enable data on the random
                moment observation forms to be confirmed. The APM stated that,
                “Case numbers or other numbers establishing case/client identity
                must also be provided when applicable to form an audit trail.” During
                our reviews at the 9 counties visited, we judgmentally selected 109
                random moments from our review of recently completed observation
                forms that provided case numbers. We reviewed the case files or the
                computerized records to determine if the programs recorded on the
                random moment observation form could be confirmed at the moments
                specified. Although the APM specified that the observation forms
                were to be distributed at or very near to the moments specified in the
                sample, we considered documentation of work on the FSP up to an
                hour before or an hour after the random moment to be confirmation of
                the random moment observation form as completed.

                In 8 of the 9 counties visited, we could not confirm that employees had
                actually worked on the programs listed on the observation forms at the
                date and time specified for 89 of the 109 random moments selected.
                We noted three instances, involving two county agencies, where
                documentation indicated workers were not working on the FSP.

USDA/OIG-A/27099-20-Ch                                                         Page 7
                 Representatives of the applicable county agencies, with whom we
                 reviewed computerized records, confirmed that programs other than
                 the FSP should have been recorded on the observation forms. We
                 found no documentation to support work on any specific program on
                 the day of the sample in 42 instances. In another 44 instances, we
                 noted worker activity in the case the day of the sample, but could not
                 confirm the time specified in the sample or the program worked on.

                 As a result of the inadequate audit trail, we could not confirm over 80
                 percent of the sample random moments reviewed. While the audit trail
                 provided by the case number established case/client identity, it was
                 not sufficient to establish the date and time and seldom established
                 the program being worked on at the random moment identified. At a
                 time when workers were responsible for only one program, this audit
                 trail may have been sufficient. However, workers currently are
                 responsible for a myriad of programs, both Federal and State, that
                 each client can participate in. Without a more effective audit trail,
                 reviewers cannot ensure that the program and activity recorded as
                 being performed at the specified random moment are correct.

           •     The universe from which the quarterly RMS samples were selected
                 included unauthorized positions. We found that county agencies
                 reported vacant, supervisory, and other questionable positions to the
                 State agency for inclusion in the RMS time study. The APM states that
                 positions that were vacant and would not be filled during the reporting
                 quarter should not be reported to the State with the employee roster. It
                 also states that all income maintenance positions should be reported
                 that perform “…directly related program functions, with the following
                 exceptions: administrative, supervisory (unless a supervisor actually
                 works a caseload), or administrative support.” We found that at least
                 five counties included vacant positions that were not going to be filled
                 in the quarter. The coordinators told us that the counties did not want
                 to lose the positions and so continued to report them. Vacant
                 positions were reported on the RMS observation form as an “invalid
                 response,” which was distributed to all programs including the FSP.
                 One county included income maintenance assistants and supervisory
                 positions in their roster reported to the State agency, although the
                 supervisors had no individual caseload. Another county included
                 questionable positions such as auto mechanic, vehicle operator, and
                 work program specialist, although none of these workers entered
                 case/client identity information on RMS observation forms they
                 completed. We question if they performed any functions directly
                 related to the programs charged.

           The most recent State of Ohio Single Audit report, for the year ended
           June 30,1999, includes similar findings regarding the RMS system. The

USDA/OIG-A/27099-20-Ch                                                           Page 8
           report found that income maintenance employees had not always initialed
           completed RMS observation forms and those RMS samples identified for a
           personal interview by the coordinator were not always initialed by the
           coordinator. In addition, RMS coordinators in 4 of 10 counties visited had not
           realized that the interviews were required and therefore had not implemented
           control activities. The report concluded that the counties limited their ability to
           reasonably ensure the information contained within the RMS forms was
           accurate and indicative of employee activities. Previous Single Audits also
           reported deficiencies at the county level in complying with RMS operating
           procedures.

           We believe the deficiencies noted in our review and the Single Audits
           demonstrate that RMS results cannot be relied upon to represent a valid
           measure of county staff activities regarding the income maintenance
           programs. The deficiencies would therefore impact the allocation of indirect
           costs to the counties for all programs. OIG’s statistician confirmed that the
           deficiencies we noted would undermine the statistical validity of the sample
           for the RMS time study. Therefore, we question the costs allocated to the
           FSP using the RMS system for the third quarter of FY1999 that amounted to
           $36,393,459, of which FNS paid $18,196,729.

           Because the RMS impacts all programs operated at the county level, FNS
           should make HHS, who is cognizant, aware of the problems identified in this
           audit report.

                                         Require the State agency to ensure that
 RECOMMENDATION NO. 1                    counties operate the RMS in compliance with
                                         the Administrative Procedure Manual.

           Agency Response

           In its July 25, 2000, response, FNS agreed with the recommendation and will
           require the State to comply with random moment sample procedures. FNS
           stated that they will review State level random moment sample controls and
           operations during a financial review that will be completed no later than May
           2001. FNS also stated that they would require the State to perform a
           compliance review of random moment sample operations at the county level
           during management evaluations performed for Federal fiscal year 2001.

           OIG Position

           Based on FNS’ corrective action, we accept management decision for this
           recommendation.




USDA/OIG-A/27099-20-Ch                                                               Page 9
                                         Require the State agency to provide periodic
 RECOMMENDATION NO. 2                    training to all coordinators on RMS procedures
                                         to be followed. Newly appointed coordinators
                                         should be provided training in            RMS
                                        procedures immediately.

            Agency Response

            FNS agreed with the recommendation and will require the State agency to
            conduct random moment sample training and will review the training efforts
            of the State staff during the next financial review to be completed no later
            than May 2001.

            OIG Position

            Based on FNS’ response, we accept management decision for this
            recommendation.

                                   Instruct the State agency to strengthen the
 RECOMMENDATION NO. 3              internal/statistical control for the RMS. The State
                                   agency should identify and make clear the
                                   purpose of the control sample and ensure,
       through its management evaluation process, that it is properly implemented
       for sampling accuracy, form completion, and quality control.

            Agency Response

            FNS agreed with the recommendation and will assess the State random
            moment sample internal/statistical controls during the next financial review to
            be completed no later than May 2001. FNS will also advise the State
            management evaluation staff to include a compliance review of county RMS
            processes, including the control sample, during their Federal fiscal year
            2001 management evaluation reviews. FNS stated they would review the
            management evaluation efforts during the next review of State financial
            operations.

            OIG Position

            Based on FNS’ response, we accept management decision for this
            recommendation.

                                   Require the State agency to improve the audit
 RECOMMENDATION NO. 4              trail requirement in the RMS time study
                                   procedures by requiring some form of
                                   documentation to support the data on the
       observation form in the case file or case computer record.


USDA/OIG-A/27099-20-Ch                                                           Page 10
           Agency Response

           FNS agreed with the recommendation and will require the State to
           strengthen the audit trail requirement. At a minimum, caseworkers will be
           required to document in the case record or computerized notes what the
           caseworker was doing during the sampled random moment. FNS will advise
           the State management evaluation staff to include an examination of random
           moment sample documentation during their Federal fiscal year 2001
           management evaluation reviews. FNS stated they would review the State
           management evaluation review efforts during the next review of State
           financial operations which will be completed not later than May 2001.

           OIG Position

           Based on FNS’ response, we accept management decision for this
           recommendation.

                                        Include coverage of random moment sampling
 RECOMMENDATION NO. 5                   procedures in all future State level operational
                                        reviews and ensure the State agency has taken
                                        timely corrective actions on the problems noted
           herein.

           Agency Response

           FNS agreed with the recommendation and will include an assessment of
           random moment sample procedures and corrective actions during future
           financial and/or operational reviews; with the first review to be completed by
           May 2001. FNS will also advise the State agency to include an examination
           of random moment sample control weaknesses during their county level
           management evaluations.


           OIG Position

           Based on FNS’ response, we accept management decision for this
           recommendation.




USDA/OIG-A/27099-20-Ch                                                          Page 11
    CHAPTER 2                     INADEQUATE INTERNAL CONTROLS
               The State agency had several cost allocation problems that result from
               internal control weaknesses within the agency. Specifically, the State agency:

               -       Had not adjusted cost claims for the FSP, and other Federal
                       programs, for costs disallowed by the Health Care Financing
                       Administration (HCFA);
               -       had not allocated contracted legal expenses directly to the benefiting
                       program; and
               -       had not accurately reported FSP administrative costs to FNS.

               These conditions occurred because the State agency did not have sufficient
               internal controls to identify the conditions and, once identified, to prevent the
               conditions from recurring. Further, the State Auditor had identified some of
               these internal control weaknesses in the FSP, and in other programs, in their
               Single Audits for FY’s 1997, 1998, and 1999. In particular, the State Auditor
               noted many instances where an adequate system of second
               party/supervisory review would have detected and prevented simple
               reporting errors, such as math errors and entering the wrong numbers in
               reports. We found similar errors in the administrative cost reports for the
               Ohio FSP for the third quarter of FY 1999.

                                       The State agency did not make the necessary
       FINDING NO. 2                   adjustments to the accounting system and
                                       Federal financial reports to reflect audit findings
  THE STATE AGENCY DID NOT             that impacted the FSP and other Federal
      DISTRIBUTE AUDIT                 programs. HCFA had identified unallowable
ADJUSTMENTS OR CORRECTIONS expenditures that had been allocated to
         TO THE FSP                    Medicaid and other programs during the first
                                       three quarters of FY 1999. Although the
                                       unallowable expenditures were also allocated to
          the FSP and other programs, the State agency had made the needed
          adjustments to correct only the HCFA financial reports. As a result, the State
          agency overcharged the FSP by $96,238 and was overpaid $48,119 in
          Federal matching funds.


               Federal regulations 1 prescribe the standards for financial management
               systems state agencies must meet. The standards include providing for
               records that identify unallowable costs as a result of FNS or other
               determinations, including audits and investigations, and providing for
               accounting procedures to prevent the claiming of these unallowable costs.

1
CFR Title 7, Section 277.6 and OMB Circular A-87, Attachment E.

USDA/OIG-A/27099-20-Ch                                                                Page 12
           The regulations also provide that to be allowable, cost must not be allocable
           to or included as a cost to any other Federally-financed program.

           As part of our review of the CAP and whether it fairly distributed
           administrative costs between programs, we examined quarterly audits of
           Medicaid Program expenditures performed by HCFA. The audit reports
           annotated corrections to cost pools and made recommendations to the State
           agency to adjust the accounting records for administrative costs charged to
           Medicaid. We observed that many of the requested adjustments to Medicaid
           costs would similarly affect FSP administrative costs. However, while the
           State agency made the required revisions to correct Medicaid financial
           reports, no corrections were made for the FSP.

           For example, HCFA requested a revision to Medicaid for an expenditure of
           $99,586 that should have been a direct charge to TANF. This revision also
           affected the FSP because the expense was initially charged to cost pool 04;
           costs from which the FSP was allocated at the rate of          31.61 percent.
           Therefore, the FSP was overcharged $31,479 [$99,586 x 31.61 percent]
           resulting in the State agency being overpaid $15,740. In another instance,
           HCFA determined an expenditure of $683,917 had been charged to cost
           pool 01 but should have been charged to cost pool 06. The State agency
           corrected the accounting records and financial report for Medicaid, but did
           not make a similar adjustment for the FSP. The allocation to the FSP was
           11.3 percent in cost pool 01 but only        8.0 percent in cost pool 06. We
           calculated the overcharge to the FSP as $22,570 [(683,917 x 11.3 percent)
           – (683,917 x 8.0 percent)] resulting in an overpayment to the State agency of
           $11,285.

           In total, the State agency overcharged the FSP $96,238 because of
           revisions to Medicaid charges identified by HCFA and made by the State
           agency during the first three quarters of FY 1999. Exhibit B provides a
           breakdown of the unallowable expenditures and the resulting effect to the
           FSP. To ensure the adjustments were fair and equitable, we adjusted the
           errors by reflecting the correct cost pool allocation, percentage, and
           administrative cost. A State agency official confirmed that the revisions
           made for Medicaid were not similarly made to FSP and that the financial
           reports to FNS were not correct. Based on the 50-50 reimbursement for
           federal funding, the State agency was overpaid $48,119.

                                       Recover $48,119 of FY 1999 Federal funds
 RECOMMENDATION NO. 6                  overclaimed because the State agency had not
                                       made the necessary adjustments to reflect
                                       Medicaid audit findings that impacted the FSP.




USDA/OIG-A/27099-20-Ch                                                         Page 13
           Agency Response

           In its response, FNS agreed with the recommendation. FNS will bill the
           State agency $48,119 within 7 days of the issuance of the audit report and
           will provide OIG with documentation of the billing.

           OIG Position

           We can achieve management decision when FNS provides documentation
           of the State agency billing.

                                       Require the State agency to develop accounting
 RECOMMENDATION NO. 7                  procedures to ensure that adjustments made for
                                       Medicaid and other appropriate audit findings
                                       are applied to the FSP.

           Agency Response

           FNS agreed with the recommendation. FNS will examine Medicaid
           adjustments during the next State level financial review to ensure that FSP
           accounts were properly adjusted. During the next financial review, which will
           be completed not later than May 2001, FNS will also assess the adequacy of
           the controls the State implements.

           OIG Position

           Based on FNS’ response, we accept management decision for this
           recommendation.

                                       Include coverage in future financial management
 RECOMMENDATION NO. 8                  evaluations to ensure the State agency timely
                                       corrects Food Stamp Program financial reports
                                       when Medicaid and other audit findings impact
           the Food Stamp Program.

           Agency Response

           FNS agreed with the recommendation. FNS will consult with Health Care
           Financing Administration auditors and will examine Medicaid adjustments to
           ensure that FSP accounts are properly adjusted during the next financial
           review, which will be completed not later than May 2001, and all subsequent
           State level financial reviews.




USDA/OIG-A/27099-20-Ch                                                         Page 14
            OIG Position

            Based on FNS’ response, we accept management decision for this
            recommendation.

                                      The State agency had not charged contracted
       FINDING NO. 3                  legal expenditures to the benefiting program,
                                      but had included them as indirect costs
 THE STATE AGENCY HAD NOT             allocated to all programs.       This occurred
    DIRECTLY ALLOCATED                because   the State agency  had not  established
     CONTRACTED LEGAL                 accounting  controls and procedures   to allocate
       EXPENDITURES                   legal costs to the benefiting program or cost
                                      objective as required by Federal regulations.
                                      As a result, the State agency misallocated
          $47,847 in direct legal expenditures, and allocated $4,283 of this amount to
          food stamp administrative costs. Consequently, the State agency was
          overpaid $2,142 by FNS for these legal expenditures for FY 1999.

            OMB Circular A-87, Attachment A, is the primary guidance for determining
            the cost of Federal programs. Section E. 1. of that circular defines direct
            costs as those costs that can be identified specifically with a particular final
            cost objective. Section F. 1. of that circular defines indirect costs as those:
            (a) Incurred for a common or joint purpose benefiting more than one cost
            objective, and (b) not readily assignable to the cost objectives specifically
            benefited, without effort disproportionate to the results achieved. Additionally,
            CFR, Title 7, Section 277.6, provides accounting regulations for programs
            funded by the Federal Government.

            We reviewed indirect costs by examining payment vouchers allocated to cost
            pool 06, the cost pool for indirect charges that could not be allocated to any
            other cost pools. We sampled 42 vouchers from the Central Accounting
            System (CAS) ledger for the third quarter of FY 1999, and noted
            questionable expenditures for legal services. We reviewed the attorney’s
            contract and the source documents for the questionable costs, and
            determined that the contracts hired an attorney to work on specific programs,
            such as Medicaid or Child Care. However, the State agency had allocated
            the legal costs as indirect charges to cost pool 06. The Chief of the Bureau
            of Accounting said the State agency allocated all charges for legal services
            to cost pool 06 because the CAP included the costs of the Office of Legal
            Services in that pool. Further, the Chief said there was not a procedure in
            place to identify legal costs by contract, and benefiting program. Although
            the Office of Legal Services was an internal legal department that benefited
            many programs, and so should be allocated to cost pool 06; these legal
            contracts were not equivalent costs to the costs of that office.




USDA/OIG-A/27099-20-Ch                                                             Page 15
           We expanded our sample to include the first, second, and fourth quarters of
           FY 1999 and identified other payment vouchers for the same attorneys. We
           reviewed these payment vouchers and found the similar direct expenditures
           charged as indirect costs. In total for FY 1999, we identified $47,847 of
           direct legal expenditures that the State agency had allocated as indirect
           costs. As a result of these misallocations, the State agency over-allocated
           $4,283 to the administrative costs of the Food Stamp Program, and, so,
           received excess reimbursements from FNS of        $2,142 for FY 1999. See
           exhibit C.

           We had also reported that legal expenses had not been allocated correctly in
           our previous audit of Ohio FSP administrative costs.

                                        Recover $2,142 for the excess reimbursement
 RECOMMENDATION NO. 9                   of legal costs.


           Agency Response

           In its July 25, 2000, response, FNS agreed with the recommendation and will
           bill the State agency $2,142 within 7 days of the issuance of the audit report.
            FNS will provide OIG with documentation of the billing.

           OIG Position

           We can achieve management decision when FNS provides documentation
           of the State agency billing.

                                        Require the State agency to implement
 RECOMMENDATION NO. 10                  procedures to charge legal costs incurred for a
                                        specific program as direct costs to that
                                        program.

           Agency Response

           FNS agreed with the recommendation. FNS will assess the State’s direct
           and indirect cost controls and procedures during the next State level financial
           review, which will be completed not later than May 2001.




           OIG Position

           Based on FNS’ response, we accept management decision for this
           recommendation.


USDA/OIG-A/27099-20-Ch                                                           Page 16
                                        The State agency inaccurately reported
      FINDING NO. 4                     administrative costs for the FSP to FNS for the
                                        quarter ending June 1999. Specifically, the
    INTERNAL CONTROL                    State agency erroneously claimed Food Stamp
PROCEDURES DID NOT ENSURE               Reinvestment Program costs for Federal
   THE ACCURACY OF FSP                  reimbursement, used the wrong number of Title
   ADMINISTRATIVE COST                  IV recipients to allocate cost pool 04 costs, and
        REPORTING                       misclassified EBT costs.         This occurred
                                        because the State agency did not have
                                        adequate supervisory/second party review, or
         similar internal control procedures, to identify and prevent cost reporting
         errors. The State Auditor reported similar internal control weaknesses in the
         FSP, and other programs, in the Single Audit reports for FY’s 1997, 1998,
         and 1999. As a result of these reporting and allocation errors, the State
         agency received $1,850 in excess FSP reimbursements. Additionally, the
         State agency underreported total EBT costs, but not total FSP costs, to FNS
         by about $450,000 for the quarter ending June 1999. Thus, this EBT
         reporting error did not cause a reimbursement error, but did understate the
         cost of an activity, EBT, that FNS was tracking.

            CFR Title 7, Chapter II, Part 277, Section 277.6 (b) requires State agencies
            to maintain accurate, current, and complete financial records of the State
            program activities.

            Food Stamp Reinvestment - We tested the State agency’s CAP by sampling
            5 of the 19 active cost pools for the quarter ending June 1999. During this
            review, we found that cost pool 1 contained a $5,806 entry for Food Stamp
            Reinvestment, a program that should be paid only with State funds. State
            agency officials ascribed this mistake to a clerical error. As a result of this
            misallocation, the State agency overstated FSP costs $4,682 for the quarter,
            and received $2,341 in excess FSP reimbursement from FNS.

            Title IV recipients – The State agency incorrectly allocated costs from cost
            pool 04. It made this allocation error because it posted the wrong number of
            Title IV recipients to the cost pool spreadsheet. The State agency then
            allocated costs from the pool using this incorrect number. Specifically, the
            State agency posted 9,532 recipients, instead of 21,532 recipients, for the
            third quarter. As a result of these erroneous allocations, the State agency
            underclaimed FSP costs by $982, and FNS under-reimbursed the State
            agency by $491 for the quarter.

            EBT Costs – The State agency underreported EBT costs by $450,000 for
            the quarter ending June 1999. Instead of charging these cost to the EBT
            account, the State agency charged these costs to “other food stamp costs.”
            The underreported accounts and amounts were:


USDA/OIG-A/27099-20-Ch                                                           Page 17
                          Account Number      Account Title        Amount
                          Account 200-521     EBT Reissuance       $ 45,227
                          Account 200-522     EBT Other              59,817
                          Account 205-521     EBT Reissuance         52,494
                          Account 205-522     EBT Other            296,131
                          Total                                   $453,669

           This discrepancy did not result in an overcharge to FNS.

           We discussed this situation with an official from the County Finance Section
           of the State agency. The official said this situation was an oversight and the
           EBT costs should have been reported with other EBT costs, instead of as
           other FSP costs. Later, another official of the County Finance Section
           informed us that the State agency had changed the appropriate accounting
           practices to properly account for EBT costs.

           The State Auditor of Ohio cited the State agency for various internal control
           problems in State administered programs, including the FSP, in the Single
           Audit Reports for 1997, 1998, and 1999. The internal control findings in
           those three audit reports cite conditions similar to the conditions that we
           noted in the above finding. Specifically, errors that should have been caught
           by an adequate supervisory/second party review process. Therefore, the
           State agency has an internal control problem that crosses program lines and
           that needs to be corrected in order for the State agency to have accurate and
           complete financial records, as required by Federal regulations, and to file
           accurate and complete reports to FNS and other Federal agencies.

                                        Recover the $1,850 in excess FSP
 RECOMMENDATION NO. 11                  reimbursements that resulted from misallocated
                                        FSP costs in the quarter ending June 1999.




           Agency Response

           In its July 25, 2000, response, FNS agreed with the recommendation. FNS
           will bill the State agency $1,850 within 7 days of the issuance of the audit
           report and will provide OIG with documentation of the billing.

           OIG Position

           We can achieve management decision when FNS provides documentation
           of the State agency billing.


USDA/OIG-A/27099-20-Ch                                                          Page 18
                                       Require the State agency to implement internal
 RECOMMENDATION NO. 12                 control processes that reasonably ensure the
                                       accuracy and completeness of quarterly FSP
                                       claims and reports.

           Agency Response

           FNS agreed with the recommendation. FNS will require the State agency to
           implement internal control processes and examine these controls in
           subsequent financial reviews.

           OIG Position

           Based on FNS’ response, we accept management decision for this
           recommendation.

                                       Verify that the State agency is now accurately
 RECOMMENDATION NO. 13                 reporting EBT costs, and request an accurate
                                       report of prior EBT costs.

           Agency Response

           FNS agreed with the recommendation. FNS will request a full accounting of
           EBT cost data since the system became operational. FNS will examine EBT
           cost reporting controls and procedures during the next financial and EBT
           cost neutrality review which will be completed not later than May 2001.

           OIG Position

           Based on FNS’ response, we accept management decision for this
           recommendation.

                                       Require the State agency to take corrective
 RECOMMENDATION NO. 14                 actions in response to Single Audit findings
                                       related to administrative costs that impact the
                                       Food Stamp Program.

           Agency Response

           FNS agreed with the recommendation. FNS will require the State agency to
           take immediate corrective action on all FSP administrative cost items listed
           in the State’s Single Audit Report for the year ending June 30, 1999. FNS
           will also closely review these items in the next year’s Single Audit.




USDA/OIG-A/27099-20-Ch                                                        Page 19
           OIG Position

           We can achieve management decision when FNS provides the date when
           the State was notified to ensure corrective action is taken on all FSP
           administrative cost items.




USDA/OIG-A/27099-20-Ch                                                   Page 20
                         THE STATE AGENCY HAD NOT INCLUDED
 CHAPTER 3
                              RECURRING COSTS IN ITS CAP
                                        The State agency had not included some
        FINDING NO. 5                   recurring costs in its CAP, but had treated these
                                        costs as exceptions to the CAP. We identified
                                        $8,119,307 of such exceptions for FSP costs
           that the State agency had allocated during the third quarter of FY 1999. As a
           result, the FNS cannot be sure that the State agency had consistently
           allocated administrative costs to the FSP

           Title 45 of the CFR explains that a State agency which intends to claim
           administrative costs for Federal reimbursement must have a CAP which
           describes the procedures that it used to identify, measure, and allocate all
           costs to each of the programs operated by the agency. The CFR states that
           the agency should have an adequate accounting and statistical system to
           support claims that will be made under the CAP. Additionally, it states the
           agency may amend the CAP, and the effective date of a CAP amendment
           will be the first day of the calendar quarter following the date of the event that
           required the amendment. However, the agency may implement a CAP
           revision at any time, at the risk of the cognizant agency disapproving the
           amendment, and denying cost reimbursements claimed under the
           amendment.

           We reviewed the costs that the State agency claimed as FSP administrative
           costs on the financial report (SF-269) for the quarter ending June 1999.
           Then, we compared these costs to the State agency’s CAP that FNSRO
           supplied to us. We reviewed $25,658,942 of allocated costs, and noted that
           the State agency had allocated $8,119,307 of costs differently that it had
           described in the CAP. If the State agency had allocated these $8,119,307 of
           costs as stated in the CAP, then the State agency would have received
           $186,258 less in FSP cost reimbursements from FNS for the quarter ending
           June 1999.


           We discussed these differences with State agency officials responsible for
           preparing the CAP and the SF-269 report, and they stated that the CAP was
           a loose framework upon which they allocated costs to benefiting programs,
           not a strict plan from which they could not deviate. Also, they said that they
           had allocated costs to the benefiting programs properly, even if they had
           deviated from the CAP. Additionally, they said that they had amended the
           CAP as a response to reorganizations in the State agency, and that they had
           made many changes in their allocations in response to audit findings by the
           HFCA, which audited them quarterly. Finally, they said that if we reviewed
           the invoices and supporting documentation for the $8,119,307, then we

USDA/OIG-A/27099-20-Ch                                                             Page 21
           would agree that they had properly allocated these costs to the benefiting
           programs.

           Also, we discussed this issue with an official of HHS’s Division of Cost
           Allocation (DCA), the cognizant agency that reviews the State agency’s
           CAP. The DCA official said that the CAP adhered to Federal regulations for
           what should be in a CAP; however, the State agency should not be changing
           the CAP in the middle of the quarter and was deviating from the CAP more
           often than it needed to. He said the CAP should tell how the State agency
           intended to allocate recurring transactions.

           After these discussions, we reviewed invoices for $7,545,957 of the
           $8,119,307 of questioned allocations. The purpose of this review was to
           determine if the State agency reasonably allocated the cost items to the
           benefiting programs, and if the cost items were recurring transactions that
           the State agency should have included in the existing CAP. We concluded
           that the allocations were reasonable; however, some items were recurring
           transactions that should have been included in the existing CAP. For
           example, the State agency should have allocated a $1,528,828 transaction
           for the Bureau of Network Support to cost pool 01, according to the existing
           CAP; however, the State agency had allocated this transaction to cost pool
           05, County Operations, as an exception to the CAP. State agency officials
           explained that the county licenses and agreements expense was allocated to
           cost pool 05 because the expenditure benefited and was related to County
           Operations. We agreed; however, these expenses would recur periodically
           and, therefore, they should have been included in the existing CAP as an
           allocation to cost pool 05, not cost pool 01. Based upon our review, we
           concluded that the State agency was properly allocating the costs that we
           reviewed; however, we had two concerns. First, the CAP did not include
           some recurring transactions in its allocations. Second, the State agency
           made many changes and exceptions to the allocations stated in the CAP.
           These changes and exceptions increased the likelihood that the State
           agency was not consistently allocating similar costs from one year to another,
           and from one quarter to another.

           The Auditor of the State of Ohio (Ohio Auditor) found similar problems, and
           reported them in the Single Audit report for FY 1999. The Ohio Auditor
           stated that the State agency’s approved CAP for FY 1999 allocated
           approximately $170 million in indirect costs to various Federal programs.
           The Ohio Auditor tested five cost pools (representing approximately 80
           percent of the charges from the 29 cost pools in the plan) for the quarter
           ending March 1999, and found numerous instances where the State agency
           charged spending responsibility centers that did not agree with those
           identified in the CAP for that particular cost pool. The Ohio Auditor
           concluded that, although these costs may have been allowable for allocation,
           there was no evidence to indicate that the Federal Government had


USDA/OIG-A/27099-20-Ch                                                          Page 22
           approved these changes. As a result, there was an increased risk that the
           State agency could incorrectly allocate indirect costs to federal programs.
           The Ohio Auditor noted that this situation could result in grantor agencies
           questioning the State agency’s costs claims and /or imposing penalties on
           the State agency

                                       Require the State agency to include recurring
 RECOMMENDATION NO. 15                 costs in the cost allocation plan and to treat
                                       these costs consistently in the future.

           Agency Response

           In its July 25, 2000, response, FNS agreed with the recommendation. FNS
           will direct the State agency to take immediate action to include recurring
           costs in the cost allocation plan and to apply these costs consistently from
           quarter to quarter.

           OIG Position

           We can reach management decision when FNS provides the date the State
           agency will be notified regarding the required actions.




                          GENERAL COMMENTS

           In 1996, the Welfare Reform Act replaced the AFDC Program with the TANF
           Program. Where AFDC had been an entitlement program, TANF was a

USDA/OIG-A/27099-20-Ch                                                        Page 23
           block grant program. The amount of each State’s grant was based on the
           State’s prior AFDC spending that included spending for common
           administrative costs. Most States allocated at least some common
           administrative costs related to qualifying individuals applying for or receiving
           benefits under multiple public assistance programs – AFDC, FSP, and/or
           Medicaid – to AFDC for Federal reimbursement. While there was no limit to
           Federal matching of State administrative costs attributable to AFDC, the
           amount of each State’s TANF block grant is fixed. Previously, States could
           charge common costs, such as certification for AFDC, Food Stamps, and
           Medicare, to AFDC as the “primary program.”

           Congress based the amount of the TANF grants on State’s prior AFDC
           expenditures that could have included common costs of AFDC, FSP, and
           Medicaid charged to AFDC as the primary program. With the passage of
           the Agricultural Research, Extension, and Education Reform Act of 1998 (Ag
           Reform Act), States were to use the “benefiting program” concept of cost
           allocation beginning in 1999. Under this concept, States were to allocate
           common costs to programs in proportion to the benefit received by the
           program. Therefore, the TANF grants included reimbursement for costs that
           would now be allocated to the FSP or Medicaid under the “benefiting
           program” concept.       As a result, the States could receive double
           reimbursement for the FSP/Medicaid portion of administrative costs.
           Congress intended that the Ag Reform Act prevent such double payment by
           requiring HHS, which administers both TANF and Medicaid, to determine
           how much of the common administrative costs for determining eligibility that
           were previously charged to AFDC could have been charged to the FSP and
           Medicaid. Congress also required USDA to reduce future federal
           reimbursements of States’ administrative costs for the FSP by an amount
           equal to HHS’ determination for this program. The Ag Reform Act also
           required that the General Accounting Office (GAO) review and report on the
           adequacy of HHS’ methodology for making its determinations.

           GAO completed its review and noted that the HHS determinations of the
           portion of common administrative costs that could have been allocated to the
           FSP annually exceeded, in aggregate, the States’ own estimates by $61
           million. The States had estimated that about $166 million was included in
           their TANF block grants for common administrative costs attributable to the
           FSP. This contrasted with HHS’ determination that this annual amount
           totaled $227 million. Because HHS’ determinations are final, USDA
           reimbursements to the States under the FSP will be reduced by this amount
           annually, even though such determinations are subject to an administrative
           appeal process and 40 States have appealed HHS’ determinations.

           On January 15, 1999, HHS issued its determination letters to the States for
           each State’s annual payment adjustment amount for the FSP. HHS
           determined this annual adjustment to be $5,840,000 for Ohio. Therefore, the


USDA/OIG-A/27099-20-Ch                                                           Page 24
           State agency will need to reduce its claims to FNS for FSP administrative
           cost reimbursements by $5,840,000 per year. The State agency has
           appealed the HHS determination; however, FNS and the State agency
           began making the required reductions for FY 1999 based upon the HHS
           determination. The Ohio appeal is still pending.

           GAO reviewed HHS’ determinations for 10 states, including Ohio, and found
           errors in 7 of the determinations that generally resulted in underestimating
           costs attributable to the FSP. For Ohio, GAO noted several errors that could
           result in the amount of FSP reimbursement to the State being reduced by an
           additional $5,559,763. In response to the GAO report, HHS indicated that
           both the States and HHS understood that the appeals process could be used
           to provide additional data sufficient to make determinations more precise
           and that the additional time provided by this process has allowed many of the
           initial errors in calculation to be remedied or rendered moot.

           FNS is monitoring the appeals process to ensure errors noted by GAO are
           considered in resolving the HHS determinations and determining the
           reductions FNS should make to the future reimbursements of FSP
           administrative costs.




USDA/OIG-A/27099-20-Ch                                                         Page 25
EXHIBIT A – SUMMARY OF MONETARY RESULTS



Finding
  No.               Description               Amount          Category

  2       Audit Findings Not Applied to        $48,119 Questioned Costs,
          FSP                                          Recovery Recommended
  3       Direct Expenditures Improperly               Questioned Costs,
          Allocated to FSP                       2,142 Recovery Recommended
  4       Expenditures Improperly Allocated            Questioned Costs,
          to FSP                                 1,850 Recovery Recommended

          TOTAL                                $52,111




USDA/OIG-A/27099-20-Ch                                                   Page 26
EXHIBIT B – SUMMARY OF EXPENSES THAT WERE NOT
           CORRECTED OR ADJUSTED FOR THE FSP

                                                                 FS        FSP            50-50
                                   UNCORRECTED                ACTUAL     AMOUNT          BASIS
                                   EXPENDITURES                SHARE      OVER-         WITH THE
       DESCRIPTION               AFFECTING THE FSP            PERCENT    CHARGED           SA
Depreciation expense                            $ 22,122       13.33        $ 2,949          $ 1,475
Depreciated Item                                $   1,788      33.06        $    591         $     296
TANF expense                                    $   4,505      32.20        $ 1,451          $     725
Incorrect Cost Pool                              $665,007      2 tier        $66,501          $33,250
Corrected Cost Pool                              $665,007      12.18        -$80,998         -$40,499
Indirect FS costs                               $   7,433      12.18        -$   905         -$    453
Indirect FS costs                               $   4,615      2 tier       -$   462         -$    231
Incorrect Coding                                $   8,318      13.33        $ 1,109          $     554
Corrected Coding                                $   8,318      12.18        -$ 1,013         -$    507
TANF expense                                     $159,357      13.33         $21,242          $10,621
Child Care Expense                               $110,780      2 tier        $11,078         $ 5,539
Child Care Expense                              $   4,296      12.18        $    523         $     262
Incorrect Cost Pool                             $   1,000      12.18        $    122         $     61
Direct FS cost                                  $   1,000      50.00        -$ 1,000         -$    500
TANF expense                                    $ 99,586       31.61         $31,479          $15,740
Child Welfare Cost                               $216,929      2 tier        $21,693          $10,846
No supporting documents                         $   7,428      10.13        $    752         $     376
Child Support                                   $     740      10.13        $      75        $     37
Incorrect Cost Pool                              $106,997      10.13         $10,839         $ 5,419
Corrected Cost Pool                              $106,997      2 tier       -$10,700         -$ 5,350
SETS printing charges                           $ 10,034       31.76        $ 3,187          $ 1,593
Incorrect Cost Pool                              $683,917      11.30         $77,283          $38,641
Corrected Cost Pool                              $683,917       8.00        -$54,713         -$27,357
Incorrect Cost Pool                              $222,237       8.00         $17,779         $ 8,889
Corrected Cost Pool                              $222,237       2 tier      -$22,224         -$11,112
Incorrect Cost Pool                             $ 20,000        8.00        $ 1,600          $     800
Corrected Cost Pool                             $ 20,000        2 tier      -$ 2,000         -$ 1,000

Total FS Overcharged                                                         $96,238
Total SA was overpaid                                                                         $48,119

Note – 2 tier is 40% of expenditure, then 25% of that total




USDA/OIG-A/27099-20-Ch                                                                   Page 27
      EXHIBIT C – SUMMARY OF UNALLOWABLE LEGAL EXPENSES
NO.              BENEFITING              QTR       UN-       QUARTERLY        FSP           50-50
              PROGRAM/ACTIVITY                 ALLOWABLE      PERCENT     OVERCHARGED       BASIS
                                                CHARGES
                                          rd
1       Child Care Program               3        $ 3,115          8.00          $ 250        $ 125
                                          rd
2       Consultant for Medicaid          3           2,723         8.00            218          109
                                          rd
3       Consultant for Medicaid          3              87         8.00              7            3
                                          rd
4       Settlement for Employment Law    3         12,000          8.00            960          480
                                          rd
5       Departmental Reorganization      3           8,275         8.00            662          331
                                          th
6       Disability Workshop              4             428         8.21            $35           18
                                          st
7       Child Care Program               1             840        12.18            102           51
                                          th
8       Child Care Program               4             473         8.21            $39           19
                                          st
9       Child Care Program               1           4,253        12.18            518          259
                                          rd
10      Consultant for Medicaid          3           2,250         8.00            180           90
                                          st
11      Consultant for Medicaid          1          1 ,046        12.18            127           64
                                          nd
12      Consultant for Medicaid          2           1,052        10.13            107           53
                                          nd
13      Consultant for Medicaid          2           1,572        10.13            159           80
                                          th
14      Consultant for Medicaid          4           2,520         8.21            207          103
                                          th
15      Consultant for Medicaid          4           1,700         8.21            140           70
                                          th
16      Consultant for Medicaid          4           2,088         8.21            171           86
                                          st
17      Consultant for Medicaid          1           1,722        12.18            210          105
                                          st
18      Consultant for Medicaid          1           1,308        12.18            159           80
                                          rd
19      Child Support Enforcement        3             395         8.00             32           16

         Total for Unallowable Charges            $47,847


            Total FSP Overcharges                                               $4,283


        Total FSP Over-Reimbursement                                                          $2,142




      USDA/OIG-A/27099-20-Ch                                                            Page 28
EXHIBIT D – FNS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27099-20-Ch                          Page 29
USDA/OIG-A/27099-20-Ch   Page 30
USDA/OIG-A/27099-20-Ch   Page 31
USDA/OIG-A/27099-20-Ch   Page 32
